       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Boston, MA 02203
                                                                           (617) 565-2684



July 27, 2010

Report Number: A-01-10-00010

JudyAnn Bigby, MD
Secretary
Executive Office of Health and Human Services
One Ashburton Place
Boston, Massachusetts 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments at Cummings Healthcare LTC
Group for State Fiscal Years 2007 through 2009. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-10-00010 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 - Dr. JudyAnn Bigby


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children's Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
ROchiORA@cms.hhs.gov
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF MEDICAID PAYMENTS AT 

CUMMINGS HEALTHCARE LTC GROUP 

   FOR STATE FISCAL YEARS 2007 

          THROUGH 2009 





                         Daniel R. Levinson 

                          Inspector General 


                             July 2010 

                           A-01-10-00010 

                        Office ofInspector General
                                         http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

 Office ofInvestigations
 The Office of Investigations (Ol) conducts criminal, civil, and administrative investigations offraud and
 misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
 States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
 of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
 often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

 Office of Counsel to the Inspector General

 The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
 advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
 operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
 programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
 connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
 renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
 other guidance to the health care industry concerning the anti-kickback statute and other OIG enfor,cement
 authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (the
State agency) is responsible for administering MassHealth, the Massachusetts Medicaid program,.
in compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce its
Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary's contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary's contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment to the nursing home by the amount of the beneficiary's contribution, the nursing home
could receive overpayments. Pursuant to Medicaid requirements, the nursing home must return
any overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services (CMS) on its next Quarterly Statement of
Expenditures for the Medical Assistance Program (CMS-64).

Cummings Healthcare LTC Group (Cummings) is a family owned group of three Medicare- and
Medicaid-certified nursing homes in New Bedford, Dighton and Melrose, Massachusetts.
Cummings also has one Medicaid-certified nursing home in Fall River, Massachusetts.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments in
accordance with Federal and State requirements to Cummings during State fiscal years 2007
through 2009 (July 1,2006 through June 30, 2009).

 SUMMARY OF FINDING

 The State Agency generally made Medicaid payments in accordance with Federal and State
 requirements to Curiunings during our audit period. However, the State agency did not always
 adjust its Medicaid per diem payments to Cummings by the amount of beneficiaries' cost-of-care
 contributions from other resources, such as Social Security and pensions. As a result, the State
 agency's Federal claim was overstated by a total of $67,278 ($35,405 Federal share). We
 attributed the incorrect Medicaid payments to clerical and billing errors.
RECOMMENDATIONS

We recommend that the State agency:

   • 	 collect overpayments totaling $67,278 from Cummings and refund the $35,405 Federal
       share of these overpayments to CMS on its next quarterly CMS-64, and

   • 	 continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.


CUMMINGS HEALTHCARE LTC GROUP COMMENTS

In written comments on our draft report, Cummings Healthcare LTC Group accepted the
summary of credits/overpayments as outlined in the draft report. Cummings Healthcare LTC
Group's comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency was in agreement with both findings. The
State agency's comments are included in their entirety as Appendix C.




                                                 ii
                                                  TABLE OF CONTENTS



INTRODUCTION.......................................................................................................... 1 


          BACKGROUND ................................................................................................. 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ....................... ~ ....................... 1 

               Obj ective .................................................................................................. 1 

               Scope ....................................................................... , ... , ............................ 1
               Methodology ............................................................................................2 


FINDING AND RECOMMENDATIONS .................................................................. .2 


          FEDERAL AND STATE MEDICAID REQUIREMENTS ................................2 


          UNADJUSTED NURSING HOME PAYMENTS ............................................3 


           AMOUNT OWED FEDERAL GOVERNMENT .............................................. .3

           CAUSE OF UNREPORTED OVERPAYMENTS .............................................3 


           RECOMMENDATIONS .....................................................................................4 


           CUMMINGS HEALTHCARE LTC GROUP COMMENTS ............................ .4 


           STATE AGENCY COMMENTS ........................................................................4 


 APPENDIXES

         A- MEDICAID OVERPAYMENTS TO CUMMINGS HEALTHCARE LTC
            GROUP, BY STATE FISCAL YEAR

         B- CUMMINGS HEALTHCARE LTC GROUP COMMENTS

         C- STATE AGENCY COMMENTS




                                                                        iii
                                      INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administer the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (the State
agency) is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary's contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary'S cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary's contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in tum is required to refund the Federal share to CMS on its next
Quarterly Statement of Expenditures for the Medical Assistance Program (CMS-64).

Cummings Healthcare LTC Group (Cummings) is a family owned group of three Medicare- and
Medicaid-certified nursing homes in New Bedford, Dighton and Melrose, Massachusetts.
Cummings also has one Medicaid-certified nursing home in Fall River, Massachusetts.

 OBJECTIVE, SCOPE, AND METHODOLOGY

 Objective

 Our objective was to determine whether the State agency made Medicaid payments in
 accordance with Federal and State requirements to Cummings during State fiscal years 2007
 through 2009 (July 1, 2006 through June 30, 2009).

 Scope

 For the period July 1,2006 through June 30, 2009, we reviewed Medicaid accounts that were at
 risk for having overpayments. We limited our review of internal controls to obtaining an
 understanding of Cumming's procedures for reviewing accounts and reporting overpayments to
 the Medicaid program.



                                                  1
We performed fieldwork in March and April 2010 at Cummings in New Bedford, Massachusetts;
the State agency in Boston, Massachusetts; and the Centers for Medicare & Medicaid Services
Regional Office in Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   • 	 reviewed State and Federal regulations pertaining to overpayments,

   • 	 worked with Cummings officials to identify credit balances in Cumming's accounting
       records that were potentially created by cost-of-care overpayments,

    • 	 reviewed Medicaid remittance advices and patient accounts to determine whether 

        overpayments had occurred, 


    • 	 determined the cause of the overpayments, and

    • 	 coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

The State Agency generally made Medicaid payments in accordance with Federal and State
requirements to Cummings during our audit period. However, the State agency did not always
adjust its Medicaid per diem payments to Cummings by the amount of beneficiaries' cost-of-care
contributions from other resources, such as Social Security and pensions. As a result, the State
agency's Federal claim was overstated by a total of $67,278 ($35,405 Federal share). We
attributed the incorrect Medicaid payments to clerical and billing errors.

 FEDERAL AND STATE MEDICAID REQUIREMENTS

 Section 1903(d)(2)(C) and CD) of the Act provides that a State has 60 days from the discovery of
 an overpayment for Medicaid services to recover or attempt to recover the overpayment from the
 provider before the State must adjust its Federal Medicaid payment.

 Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
 provided to a Medicaid-eligible individual by the amount that remains after adjusting the
 individual's total income for a personal needs allowance and other considerations that the
 regulation specifies. MassHealth regulations at 450.316 notes that all resources available to a


                                                  2
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.

UNADJUSTED NURSING HOME PAYMENTS

The State made 168 overpayments to the 4 Cummings nursing homes on behalf of an average of
5 Medicaid beneficiaries each month during July 1,2006 through June 30, 2009 (Appendix A).
Specifically, the State agency did not adjust its Medicaid payments to Cummings by the amount
of beneficiaries' cost-of-care contributions from other resources, such as Social Security and
pensions.


                  Example of Medicaid Overpayment for One Beneficiary

    Mr. A was a patient at Cummings nursing home during May 2008. Based on his other
    resources, the State Agency calculated Mr. A's cost-of-care contribution to be $800 a
    month. The State agency determined that the nursing home was entitled to a monthly
    payment of$5,000. Because ofMr. A's $800 cost-of-care contribution, the State Agency
    was responsible for only $4,200 of the $5,000 nursing home costs. However, the nursing
    home received a total of $5,800 ($5,000 from the State agency and $800 from Mr. A),
    because the State agency's computer system did not adjust the payment amount to take into
    consideration for Mr. A's cost-of-care contribution. Thus, the nursing home received an
    overpayment of$800 ($5,800 minus $5,000) for Mr. A's care for the month of May.


 AMOUNT OWED FEDERAL GOVERNMENT

 As a result of the overpayments, the State Agency's Federal claim for Medicaid payments made
 to Cummings for the period July 1,2006 through June 30, 2009, was overstated by a total of
 $67,278 ($35,405 Federal share).

 CAUSE OF UNREPORTED OVERPAYMENTS

 We attributed the 168 incorrectly reimbursed Medicaid payments to clerical and billing errors.
 Massachusetts officials informed us that they have recently implemented a new computer system
 which will reduce future clerical and billing errors.




                                                 3

RECOMMENDATIONS

We recommend that the State agency:

   • 	 collect overpayments totaling $67,278 from Cummings and refund the $35,405 Federal
       share of these overpayments to CMS on its next quarterly CMS-64, and

   • 	 continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

CUMMINGS HEALTHCARE LTC GROUP COMMENTS

In written comments on our draft report, Cummings Healthcare LTC Group accepted the
summary of credits/overpayments as outlined in the draft report. Cummings Healthcare LTC
Group's comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency was in agreement with both findings. The
State agency's comments are included in their entirety as Appendix C.




                                                 4

APPENDIXES 

                                                        APPENDIX A



  MEDICAID OVERPAYMENTS TO CUMMINGS HEALTHCARE
          LTC GROUP, BY STATE FISCAL YEAR


           Average Number of       Number of
Fiscal      Beneficiaries with    Overpayments       Total
Year     Overpayments per Month                  Overpayments

 2007            3                    36            $18,858

 2008            5                     60            16,350

 2009             6                    72            32,070

TOTAL             5                   168           $ 67,278 

                                                                                                                                                 APPENDIXB 



                                             CUMMINGS HEALTHCARE 

                                              LTC GROUP COMMENTS 





                                               CUmmings
                                                     Health        ~are             Inc.
                                        Tel: 508-880-1133 • Fax: 508-990-2379




                                                                                                                                        June 22, 2010


                      Office of Audit serVices;.I:'I.~giOn
                                                        i
                      John F. Kennedy Federal Building·
                      Boston, MA 02203


                      We have reviewed your findings in review of Medicaid Payments at CUmmings Healthcare LTC
                      Group for Fiscal Year 2007-2009. We accept the summary of credits/ overpayments as outlined ih
                      your report.

                      We wish to stress that the summary of findings concluded that Cummings Healthcare attempted to
                      return overpayments to the Sate Agency on many occasions through various methods. Due to the
                      State Agency's systems, the credits and or overpayments were not accepted or allowed to be'
                      returned to the State Agency (Mass Health) despite our repeated attempts. Cummings Healthcare
                      respectfully requests no penalties or fines be placed on any of the Nursing Homes due to our
                      aggressive attempts to return the overpayments.


                       Sincerely,




                  ~
              ,/
             :                                   ~           G
                  ,     Michael Cummings/Nancy L!i:I n




                        Report# A-01-10-00010




                                                                                             .: ; ,I   -.; : ... ~~
                                                                                                                                                   ,,'       '.".    ::: ..
                                                                          '.(                             ........ :..   ~   ...   '.   ~   ...:"..'
                                                                                                                                                       :..            ;..
                                                                                                        . ...
                                                                                                                                                                              .
                                                                                                               '~.,      .~.:.                                ~.<
                                                                                •    ·f   :.:,"                                                               ... -
                                                                                                                                                             ',     ~:,



              \
TUELL NURSIN~ HOME          HIGHLAND MANOR NURSING HOME      CUMMINGS HEALTH CARE                 BEDFORD YILLAGE NURSING HOME                     DIGHTON NURSING CENTER
  92 Franklin. Slreet             761 Highland Avenue            LTC GRQUP, INC,                      ,". 9 Pope StrIl,et' ..                         ,; ~07 Center Street
  Melrose. MA 02176               Fall River. MA 02720          404 County Street                     New Bediord, MI,: 02740                      , North Dighton. MA 02764
   781-665-0764                      508-679-1411             New Bedford, MA 02740                       508-997-3359                                    508-669-6741
                                                                  508-990-1133
                                                                                                               APPENDIXC


                                        STATE AGENCY COMMENTS


                                  The Commonweaith ofMassachUsetts                                    MassHealth
                              Executive Office of Heaith and Human Seruices 

                                             Office of Medicaid 

                                           One Ashburton Place 

                                             Boston. MA 02108
 DEVAL L. PATRICK                                                                                       JUDYANNBIGBY, M.D.
     Governor                                                                                                 Secretary

TIMOTHY P. MURRAY                                                                                     TERENCEG.DOUGRERTY
 Lleuten.ant Governor                                                                                      Medicaid Director   .

            July 15, 2010

             Michael J, Armstrong
             Regional Inspector General, Audit Services
             HHS/OIG/OAS
             Region I
             JFK Federal Building
             Boston, MA 02203

             RE: Audit Report No: A-01-10-00010

             Dear Mr. Armstrong,

              Thank you for the opportunity to review and comment on Draft Audit' Report No.: A-01-10- 00010 Review
              of Medicaid Payments at Cummings Healthcare LTC Group for State Fiscal Years 2007 - 2009

             Our responses to the report's specific recommendations are as follOWS:
             Recommendation:

              1)' Collect overpayments totaling $ 67,278 from Cummings and refund $ 35,405 Federal share of          these
              payments to CMS on the next quarterly CMS-64.                           .

              Response: We are in agreement with this finding and will follow the procedures described in state
              Medicaid regulations at 130 CM.R 450.237 to coliect the overpayments from the provider. Under 130'
              CMR 450.237,"the provider has a due process right'to contest the overpayment, including the rightto
              request an adjudicatory hearing and judicial review. We will need the OIGs workpapers identifying the
              specific claims in·order to undertake collection of the overpayments and to defend any challenge to
              collection by the provider. If the provider does not contest.the overpayment collection or its contest to the
              overpayment does not succeed, we will work with EOHHS' Federal Revenue Unit to return the Federal
               share on tlie appropriate CMS-64.'

                Recommendation:

                2) Continue agency efforts to ensure that Medicaid overpayments to nursing 110mes are identified,
                  . collected and refunded.

                Response: We are in agreement with this finding and will ensure that periodic reviews and audits are
                conducted to Identify; coliect and refund overpayments.




           Jj
                        k you, again, for the opportunity to respond to the draft report.

                S nc rely,        r
                  \        .'
           (      -r~no tI
                :t~.D 

                 M,caid Dire 0
